UNITED STATES SUPREME COURT
NO: 18-2992

JOSEPH RAIMONDO,
on behalf of himself and all others similarly situated,
Petitioner

V

DENISE PAGE HOOD, U.S. DISTRICT JUDGE, U.S. Employee et al.
Appellees
Appeal from U.S. District Court for the Western District of Missouri- Jefferson City
(2:17-cv-04254-NKL)

PROOF OF SERVICE FOR MOTION FOR EXTENSION OF TIME FOR FILING
CERT OF WRIT
The undersigned certifies that a copy of the enclosed Motion for Extension of Time
for Filing Cert of Writ was served with the following dated Orders from the 8th
Circuit Appeals Court as described in dated order as received as being:
1,Mandate dated May 24, 2019; 2, Order denying petition for en banc rehearing,
dated May 16, 2019; 3, Judgement dated Feb. 20, 2019; 4, Order granting
motion to amend petition for rehearing dated April 17, 2019, 5, Eight Circuit
Court of Appeals Notice of Docket Activity dated April 17, 2019; 6, Order entered
September 18, 2018 calling up the District Courts case file on case (2:17-cv-04254NKL); 7, Copy of the recorded addresses of defense Counselors service was mailed
to.
Service was also served upon the Solicitor General at the following address as
being; 950 Pennsylvania Ave., NW Washington D.C. 20530-0001 suite 5614 to the
direct attention of, Mr. Noel; Francisco.
The undersigned certifies that the above was mailed by U.S. Mail on July 9, 2019.

Respectfully submitted by:
July 8, 2019:

Joseph Rai ndo

Additional material
from this filing is
available in the
Clerk's Office.

